 

No. 20-18

 

In THE

Supreme Court of the Anited States

ARTHUR GREGORY LANGE,
Petitioner,
Vv.
STATE OF CALIFORNIA,
Respondent.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Petitioner

contains 7,981 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2020.

 
